U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

March 16, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Eagle Trust Fund v. United States Postal Service, et al.
S.Ct. No. 20-1026

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on January 25,
2021, and placed on the docket on January 28, 2021. The government’s response is due on April
12, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including May 12, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-1026
EAGLE TRUST FUND
UNITED STATES POSTAL SERVICE, ET AL.

LAWRENCE J. JOSEPH
LAW OFFICE OF LAWRENCE J. JOSEPH
1250 CONNECTICUT AVE., NW
SUITE 700-1A
WASHINGTON, DC 20036
202-355-9452
LJ@LARRYJOSEPH.COM

